          Office of Inspector General
Corporation for National and Community Service

                     Semiannual Report to Congress
                             for the period
                    October 1,2002 - March 31,2003
                                    Fiscal Year 2003
                                 Semiannual Report No. 1




Pursuant to the Inspector General Act of 1978, as amended, this report describes activities and
accomplishments for the first half of the fiscal year. Section 5 of the Act requires that the
Corporation's Chief Executive Officer submit this report to Congress and the Corporation's
Board of Directors within thirty days of its receipt.
                                     TABLE OF CONTENTS
EXECUTNE SUMMARY ......................................................,..............................................................i

                                                                                                                                          ...
INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ...............................................111

ABOUT THE OFFICE OF INSPECTOR GENERAL ..........................................................................
                                                                                                              iv

AUDIT SECTION ..................................................................................................................................
                                                                                                                                            1

     FINANCIAL MANAGEMENT .......................................................................................................           1
     GRANT MANAGEMENT AND OVERSIGHT .............................................................................                          1
     INFORMATION SYSTEMS .............................................,........................................................~....4
     AUDIT RESOLUTION .....................................................,.............................".."....... ~...................4
     AUDIT REPORTS ..........................................................................................................................6
                                                                                                   ~




INVESTIGATIONS SECTION ..............................................................................................................7

     HIGHLIGHTS OF INVESTIGATIONS DURING THIS REPORTING PERIOD ........................7
     SUMMARY OF INVESTIGATIONS .......................................... . . . ........ . . . . . ,......... . . . . ...1 2

 TABLES

     TABLE I                INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS ..............13
     TABLE I1               INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
                            THAT FUNDS BE PUT TO BETTER USE ......................................................14
     TABLE I11              SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT
                            DECISIONS ........................................................................................................
                                                                                                                                            15
      TABLE IV              REPORTS DESCRIBED IN PRIOR SEMIANNUAL REPORTS
                            WITHOUT FINAL ACTION .............................................................................              17




                                            Office of Inspector General
                                  Corporation for National and Community Service
                                      1201 New York Avenue, NW., Suite 830
                                              Washington, D.C. 20525

                                         Telephone (202) 606-5000, extension 390
                                                Facsimile (202) 565-2795
                                                 Hotline (800) 452-8210
                       EXECUTIVE SUMMARY

                                                          were allowable under the grant agreement, its
            AUDIT SECTION
                                                          terms and conditions, and applicable Federal
                                                          law and regulations.
During this semiannual reporting period, the
Office of Inspector General (OIG) issued nine
                                                          Information Systems
(9) audit reports, including the audit of the
Corporation for National and Community
Service's fiscal year 2002 financial                      In response to congressional requirements, the
statements. Summaries of all audit reports                OIG researched and developed an approach to
issued from October 1, 2002, to March 3 1,                fulfill its responsibility of concurring with the
2003, are on pages 1 through 4.                           Corporation's certification that adequate cost
                                                          accounting and grants management systems
                                                          have been acquired, implemented, and
Financial Management
                                                          conform to Federal requirements, as
                                                          appropriate.
The audit of the Corporation's fiscal year
2002 financial statements resulted in an                           EVALUATION SECTION
unqualified opinion on the Statement of
Financial Position as of September 30, 2002,
                                                          During this reporting period, the OIG
and the related Statements of Operations and
                                                          established an Evaluation Section, which will
Changes in Net Position and Cash Flows for
                                                          be staffed with an assistant inspector general
the year then ended. No material weaknesses
                                                          and three evaluators. The mission of the unit
were identified. However, the Corporation
                                                          is to review various functions of the
violated fj 12581(f) of the National and
                                                          Corporation and make recommendations for
Community Service Act (42 U.S.C. fjfj 12501-
                                                          improvement. It will also assist grantees and
681) by approving AmeriCorps national
                                                          other beneficiaries of the Corporation's
service positions in excess of the number of
                                                          programs to avoid potential pitfalls through
positions for which the Corporation had
                                                          proactive educational initiatives.         An
budgeted.
                                                          evaluator from the Office of Inspector
                                                          General, Health and Human Services has been
Grant Management and Oversight                            detailed to the 01G for three months to assist
                                                          this new section.
During this period, the OIG completed one
                                                                 INVESTIGATIONS SECTION
State commission audit. The incurred cost
audit of the Indiana Commission for
Community Service and Volunteerism                        During this reporting period, the OIG received
resulted in questioned costs of approximately             and processed seventy (70) Hotline contacts,
$1 million (7 percent) of the $14.1 million in            opened sixteen (16) investigative actions, and
costs    claimed.      The   audit   included             completed ten (10) investigative actions.
recommendations on improving compliance                   Seven (7) matters were referred to the
and internal controls.                                    Department of Justice for prosecution or civil
                                                          enforcement. One (1) matter was referred to
The Office of Inspector General also issued               management of the Corporation for corrective
six (6) reports pertaining to audits of grants            action. Highlights of investigations closed
awarded to other Corporation grantees to                  during this period are presented on pages 7
determine whether costs incurred and claimed              through 11.
                                                 -



                                                     I'                  FY03 Semiannual Report No. I
                                                       EXECUTIVE S U M M R Y

          OUTREACH EFFORTS
As part of our ongoing fraud prevention effort,        The Office of Inspector General investigative
the OIG made four presentations during this            staff has begun identifying all Education
reporting period. One was made by the                  Award Only AmeriCorps members and their
Deputy Inspector General, two were made by             service sites. Field locations are visited and
the Assistant Inspector General for                    members are contacted to discuss their
Investigations and two others were made by             community service experiences. This new
investigative staff. These presentations were          initiative increases the visibility of the OIG
made to staff members of grantees, State               and verifies member information submitted
commission staff and Corporation staff. The            to, and maintained by, the Corporation.
presentations     defined fraud, discussed
prevalent types of abuses, and identified
indicators of fraud.




                                                  ii                 FY03 Semiannual Report No. I
        INSPECTOR GENERAL ACT REPORTING
                 REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978,
as amended, to the specific pages in the report where they are addressed.


   Requirement                                                                            Page

 Section 4 (a)(2)     Review of legislation and regulations                             None this
                                                                                         period

 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the     Throughout
                      administration of Corporation programs and operations

 Section 5 (a)(2)     Recommendations for corrective action with respect to             Throughout
                      significant problems, abuses, and deficiencies found in the
                      administration of Corporation programs and operations

 Section 5 (a)(3)     Prior significant recommendations on which corrective action          17
                      has not been completed

 Section 5 (a)(4)     Matters referred to prosecutorial authorities                         12

 Section 5 (a)(5)     Summary of instances where information was refused                 None this
                                                                                          period

 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value of     1-4,6
                      questioned costs and dollar value of recommendations that
                      funds be put to better use

 Section 5 (a)(7)     Summary of significant reports                                    Throughout

 Section 5 (a)@)      Statistical table showing number of audit reports and dollar          13
                      value of questioned costs

 Section 5 (a)(9)     Statistical table showing number of audit reports and dollar          14
                      value of recommendations that funds be put to better use

 Section 5 (a)(       Summary of each audit issued before this reporting period for       15 - 16
                      which no management decision was made by end of reporting
                      period

 Section 5 (a)( 11)   Significant revised management decisions                           None this
                                                                                          period

 Section 5 (a)(12)    Significant management decisions with which the Inspector          None this
                      General disagrees                                                   period



                                                      iii             FY03 Semiannual Report No. I
ABOUT THE OFFICE OF INSPECTOR GENERAL

The Office of Inspector General and the Corporation for National and Community Service were both
established by the National and Community Service Trust Act of 1993.

Like all Federal OIG operations, our office is independent of the agency it oversees. It is led by a
presidential appointee. We conduct and supervise objective audits and investigations of CNCS
programs, including AmeriCorps, VISTA, the National Civilian Community Corps, Learn and Serve
America and the Senior Volunteer Program.

The OIG team of professional investigators and auditors also examines State community service
programs that receive and distribute the majority of CNCS funds, as well as local grantees.

Based on the results of these audits, reviews and investigations, the OIG recommends CNCS policies to
promote economy and efficiency. It also strives to prevent and detect fraud and abuse of taxpayer dollars
that have been invested in CNCS programs.

This Semiannual Report, as required under the Inspector General Act of 1978, details our work for the
first six months of Fiscal Year 2003. The report is being transmitted to the Chief Executive Officer of
CNCS, all members of the CNCS Board of Directors and Members of Congress. It will also be made
available to the public.

All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information Act.
Our efforts are often abetted by information supplied via the OIG Hotline (800-452-8210). The Hotline
allows CNCS employees, grantees, and program beneficiaries among others, to report concerns and
suspected fraud.

For more information on the OIG and its work, please visit our Internet website: (www.cncsig.gov).


                                          THE OIG TEAM
                                            J. Russell George
                                             Inspector General


Robert Shadowens              Vince Mulloy             Matt Rupp            William Hillburg
Deputy Inspector General       Counsel to the OIG      Counselor to the     Senior Advisor - Director of
                                                       I@                   Communications
Dan Lybert                           Alan Boehm                             Linda Wallis
Assistant IG for Audits              Assistant IG for Investigations        Assistant IG for Support
 Carol Bates                          Ken Bach                                Karen Howard
 Audit Manager                        Senior Special Agent/ISSO               Ofice Manager
 Monica Cely-Rodriguez                Robert Walters                          Stewart Leathwood
 Auditor                               Senior Special Agent                  Information Technology
                                                                             Specialist
 Arne1 Cortez
 Evaluator
                                                                              Shirleen Chittams
                                                                             Administrative Assistant
                                                                              Wendy Wingers
                                                                              Administrative Assistant


                                                       iv                 FY03 Semiannual Report No. I
                                 AUDIT SECTION

The Office of Inspector General Audit Section is responsible for reviewing financial, administrative,
and programmatic operations of the Corporation for National and Community Service (the
Corporation). It carries out these responsibilities by conducting the audit of the Corporation's annual
financial statements, assessing management controls, auditing operations, and auditing individual
grants, contracts, and cooperative agreements funded by the Corporation. All OIG audit reports are
referred to the Corporation's management for action or information. A list of the reports issued by
the Audit Section during this period can be found on page 6.


                               FINANCIAL MANAGEMENT

Audit of the Corporationfor National and Community Service's Fiscal Year 2002 Financial
Statements (Audit Report Number 03-01)
The Government Corporation Control Act (3 1 U.S.C. $8 9101-10) requires the OIG to annually audit
the Corporation's financial statements. The Office of Inspector General contracted with KPMG LLP
to audit the Corporation's fiscal year 2002 statements. This audit, conducted in accordance with
government auditing standards, resulted in an unqualified opinion on the Corporation's Statement of
Financial Position as of September 30, 2002, and the related Statements of Operations, Changes in
Net Position, and Cash Flows for the year then ended.

The auditors considered certain matters involving the internal control of financial reporting and
operations to be a reportable condition. The Office of Inspector General and KPMG agreed, however,
that this reportable condition, related to grants management, did not constitute a material weakness.

Additionally, the auditors noted that the Corporation violated $ 12581(f) of the National and
Community Service Act (42 U.S.C. $9 12501-681), which prohibits the Corporation from approving
national service positions unless there are sufficient funds in the National Service Trust to support the
projected number of enrollments. As a result, in November 2002, the Corporation temporarily
suspended the ability of its grantees to enroll members into positions that had already been
authorized.


                     GRANT MANAGEMENT AND OVERSIGHT

The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to State and local governments, State commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of their grant agreements. The Corporation is responsible for
ensuring that grantees comply with applicable laws and regulations related to the administration of
grant awards, including those related to Federal cash management requirements.




                                                       1                FY03 Semiannual Report No. I
                                                                                     A UDITS
The Office of Inspector General Audit Section conducts audits of the Corporation's oversight of
grantees and grants to assess whether reported costs are allowable under Federal regulations and
whether grantees are complying with the terms and conditions of their awards. Our reports on
Corporation grants also include recommendations for correcting deficiencies. Typically, the
recommendations call for grantees to reimburse questioned costs, establish and implement policies
and procedures to prevent future instances of non-compliance, and improve internal controls. We
also make recommendations for increased oversight by the Corporation and improvements in the
Corporation's grants management operations.


State Commission Audits
The Corporation, pursuant to the authority of the National and Community Service Act, as amended,
awards grants and cooperative agreements to State commissions, nonprofit entities, Native American
tribes, and U.S. territories to assist in the creation of full- and part-time national and community
service programs. The Corporation awards approximately two-thirds of its AmeriCorps State and
National funds to State commissions. In turn, the State commissions fund and are responsible for the
oversight of the subgrantees who execute the programs. Working for these subgrantees, AmeriCorps
members help their communities meet educational, human, environmental, and public safety needs.

Incurred Cost Audit of Grants Awarded to the Indiana Commissionfor Community Service and
Volunteerism (Audit Report Number 03-03)
The Office of Inspector General retained Cotton & Company LLP to audit Corporation grants to the
Indiana Commission for Community Service and Volunteerism from October 1, 1997, through
September 30, 2001. Of the $14,107,062 in total costs claimed during the audit period, questioned
costs of $330,400 and unsupported costs of $689,726 were identified. The report included nine (9)
recommendations to the Commission to address weaknesses in compliance and internal controls, such
as facilitating the timely submission of Financial Status Reports and grant closeout documents, and
strengthening the Commission's program monitoring procedures. The auditors concluded that the
Schedules of Award Costs present fairly the costs claimed by the Commission, except for the
questioned and unsupported costs identified in the report, and the effects of any adjustments.


Grants Awarded to Entities Other Than State Commissions

Audit of the Points of Light Foundation Grant Numbers OlPOLDC002 and OIPOLDC003 (Audit
Report Number 03-09)
The Office of Inspector General staff completed an audit of Corporation funds awarded to the Points
of Light Foundation. The audit examined the costs incurred to determine whether the amounts
incurred and claimed were allowable under the grant agreement, its terms and conditions, and
applicable Federal laws and regulations. It also evaluated the internal control structure to determine
whether it was adequate to safeguard Federal funds. The audit identified questioned costs of $6,242
out of the $208,075 of costs claimed on the Foundation's National Conference Grant. The questioned
costs were incurred prior to and after the grant period. Such costs are allowable only with written
approval of the Corporation. The audit discovered instances of noncompliance with laws and
regulations, and recommended that progress reports and A-1 33 audit reports be submitted in a timely
manner.




                                                     2                FY03 Semiannual Report No. I
Audit of the AmeriCorps Education Awards Program (Audit Report Number 03-10)
The Office of Inspector General completed an audit of the AmeriCorps Education Awards Program.
The audit evaluated Corporation and grantee compliance with AmeriCorps Education Awards
Program grant requirements, including a review of management controls. It found that the
Corporation has adequate controls in place to ensure AmeriCorps Education Awards Program grant
expenditures are made in accordance with program requirements. The audit did not include an
analysis of the potential education awards that could be earned or the resultant liability that would be
recorded to the Trust Liability Account.

Audit of America's Promise - The Alliance for Youth Grant Number OlSPHVAOOl (Audit Report
Number 03-11)
The Office of Inspector General completed an audit of Corporation for National and Community
Service Grants to America's Promise - The Alliance for Youth Grant Number 01SPHVA001. It
examined the costs incurred to determine whether the amounts incurred and claimed were allowable
under the grant agreement, its terms and conditions, and applicable Federal law and regulations. The
audit also evaluated the internal control structure to determine whether it adequately safeguards
Federal funds. The audit identified questioned costs of $23,432 out of $7,483,000 of costs claimed.
The questioned costs included salaries, benefits, and travel expenses incurred prior to the effective
date of the award. Additionally, $91 1 of interest earned on Federal funds were questioned.

Results of Agreed-Upon Procedures to the Retired and Senior Volunteer Program of Bergen
County Incorporated Grant Numbers 340A047-19, -20 and -21 (Report Number 03-12)
The Office of Inspector General completed an agreed-upon procedures report on the Retired and
Senior Volunteer Program of Bergen County (New ~ e r s e ~ ) ' .The purpose of the agreed-upon
procedures was to determine if grant funds were used to promote and support volunteer activity in a
manner that complied with the terms and conditions of the grants. The Office of Inspector General
report identified that Corporation funds were used to promote retired and senior volunteerism and
volunteer activities. However, our report further identified that the Retired and Senior Volunteer
Program of Bergen County failed to recruit and retain the total number of volunteers that were
projected in its budget requests. The program also did not meet the award requirement that at least 25
percent of Corporation funding be used for volunteer expenses and cost reimbursements.

Interim Audit of Costs Claimed by Parents as Teachers National Center, Incorporated Under
Grant Agreement No. OISPHM0004 (Audit Report Number 03-13)
The Office of Inspector General engaged Cotton & Company LLP to audit costs claimed by the
Parents as Teachers National Center, Incorporated under Grant Number 01SPHM0004. The audit
included procedures to determine if costs claimed in financial reports were allowable, if internal
controls were adequate to safeguard Federal funds, and if policies and procedures were in place to
ensure compliance with Federal laws, applicable regulations and award conditions. Costs claimed
were $926,976. The audit found $91,760 of questioned costs. Of the questioned costs, $47,539
resulted from costs that were incurred prior to the grant period. Such costs are allowable only with
the written approval of the Corporation.




I
 In an agreed-upon procedures engagement, the auditor carries out procedures of an audit nature to which the
auditor and the Office of Inspector General have agreed, and the auditor reports on factual findings.

                                                         3                  FY03 Semiannual Report No. I
Audit of Costs Claimed by The Navajo Nation Under Grant No. 339 W023-21 Foster Grandparent
Program (Audit Report Number 03-14)
The Office of Inspector General engaged Cotton & Company LLP to audit costs claimed by the
Navajo Nation under Grant Number 339W023-21 for the Foster Grandparent Program. The audit
included procedures to determine if costs claimed in financial reports were allowable, if internal
controls were adequate to safeguard Federal funds, and if the Navajo Nation had policies and
procedures to ensure compliance with Federal laws, applicable regulations and award provisions. The
audit identified questioned costs of $151,203 of the $570,473 of costs claimed. Of the questioned
costs, $1 14,271 resulted from salary and applicable fringe benefits charged to the grant with no
periodic certifications. We also found no after-the-fact determination of actual activity for employees
working on multiple cost objectives.


                                   INFORMA TION SYSTEMS

Letter Report Regarding Plan for OIG Concurrence with the Certification of New Grants
Management and Cost Accounting Systems (Letter Report Number 03-15)
The Office of Inspector General (OIG) engaged KPMG LLP to assist in developing a plan to satisfy
the Congressional requirements expressed in the conference report for the Corporation's fiscal year
2001 appropriations. The objective was to develop and recommend an approach that would enable
the OIG to fulfill the responsibilities, as assigned by Congress, to concur with the Corporation's
certification that adequate cost accounting and grants management systems have been acquired and
implemented. The report provided recommendations establishing the scope of the procedures to be
completed, tasks that should be completed, methodology for performing the work, and timing of
procedures to be completed.2


                                       A UDIT RESOL UTION

The Corporation's audit resolution process essentially consists of four steps. After the Office of
Inspector General (OIG) issues an audit report, the Corporation normally issues a Proposed
Management Decision (PMD), responding to the report's findings and recommendations, generally
within five months of the report's issuance. If the OIG disagrees with management's proposed
corrective actions, the OIG submits written comments within thirty days of receiving the PMD. Not
more than six months after an audit report is issued, the Corporation's policy requires that the Chief
Financial Officer respond to the audit with a Management Decision describing approved corrective
actions and a timetable for implementation. Final action on corrective measures must be completed
within twelve months of the audit report's publication. Management subsequently transmits a
Notification of Final Action when all corrective measures have been completed and the responsible
management official has verified the actions. At this point, management considers the audit report to
be fully resolved.




2
 This letter report is a type of an agreed-upon procedures engagement. In an agreed-upon procedures
engagement, the auditor carries out procedures of an audit nature to which the auditor and the Office of
Inspector General have agreed, and the auditor reports on factual findings.

                                                           4                  FY03 Semiannual Report No. 1
                                                                                     AUDITS
Management Decisions
During this semiannual reporting period, the Corporation notified the OIG of five ( 5 ) proposed
management decisions. The Corporation considered the proposed management decisions to be their
notices of final action and are listed on the following page.

Notices of Final Action
The Office of Inspector General has received and concurred in the following Notices of Final Actions.
Management has reported that its corrective actions have been completed.

        Audit Report 99-10, Audit of Corporation for National and Community Service Contract No.
        95-001 with TvT Associates, Inc.

        Audit Report 00-22, Audit of Corporation for National and Community Service Contract No.
        94-002 with Encore Management Corporation

        Audit Report 01-04, Incurred Cost Audit of Grants Awarded to the Oregon Community
        Service Commission

        Audit Report 02-08, Incurred Cost Audit of Grants Awarded to the North Carolina
        Commission on Volunteerism and Community Service

        Audit Report 02-09, Incurred Cost Audit of Grants Awarded to the Washington Commission
        for National and Community Service

        Audit Report 03-09, Audit of the Points of Light Foundation Grant Numbers 01POLDC002
        and 0 1POLDC003

        Audit Report 03-1 1, Audit of America's Promise    -   The Alliance for Youth Grant Number
        0 1SPHVAOO1




                                                     5                FY03 Semiannual Report No. I
                                                                                            A UDITS

                            AUDIT REPORTS ISSUED DURING THE PERIOD
                             OCTOBER 1,2002 THROUGH MARCH 31,2003
   -        -        -        -       -       -        -                                                      -




                                                                             Federal          Federal
Report      Issue                                                            Dollars          Dollars
Number      Date                       Report Name                          Questioned      Unsupported
                                                                                  (Dollars in thousands)

            3/4/03   Audit of the Corporationfor National and Community             N/ A                   N/ A
                     Service's Fiscal Year 2002 Financial Statements

           3/27/03 Incurred Cost Audit of Grants Awarded to the Indiana       1,020,126             689,726
                   Commissionfor Community Service and Volunteerism

           2/21/03 Audit of the Points of Light Foundation Grant                  6,625                    N/A
                   Numbers OIPOLDC002 and OIPOLDC003

           1131/03 Audit of the AmeriCorps Education Awards Program                 N/A                    N/ A

           3/ 17/03 Audit of Corporationfor National and Community               24,343                    N/A
                     Service Grants to America's Promise - The Alliance
                    for Youth

           113 1/03 Results of Agreed-Upon Procedures to the Retired and
                    Senior Volunteer Program of Bergen County
                    Incorporated, Grant Numbers 340A047-19, -20, and -
                    21

           211 1/03 Interim Audit of Costs Claimed by Parents as
                    Teachers National Center, Incorporated Under Grant
                    Agreement No. 01SPHM0004

           3/28/03 Audit of Costs Claimed by the Navajo Nation Under
                   Grant No. 339 W023-21 Foster Grandparent Program

            1131/03 Letter Report Regarding Plan for OIG Concurrence
                    with the Certification of New Grants Management and
                    Cost Accounting Systems

                      TOTAL

NIA means not applicable.




                                                  6                        FY03 Semiannual Report No. 1
                    INVESTIGATIONS SECTION
At the beginning of this reporting period, there were seventeen (17) investigative actions pending.
During this reporting period, sixteen (16) investigative actions were launched and ten (10) were
closed. Twenty-three (23) investigative actions were pending at the end of the period.


                         HIGHLIGHTS OF INVESTIGATIONS

Reported Violation of the Anti-Deficiency Act (OIG Report of Investigation 03-007)
The Office of Inspector General is conducting an investigation regarding the National Service Trust
after receiving information that the Corporation had initiated a pause in AmeriCorps enrollments in
an attempt to prevent the Trust's liabilities from exceeding its assets. The investigation focused on
determining if the provisions of the Anti-Deficiency Act (31 U.S.C. 5 1341) were violated and the
causes for the pause in AmeriCorps member enrollments.

The Office of Inspector General determined that, based on the legal opinions of the Corporation's
General Counsel and the Counsel to the Inspector General, the provisions of the Anti-Deficiency Act
appear to have not been violated, and the Trust's liabilities did not exceed its assets. Yet, the OIG did
find that, due to a lack of communication and coordination among the Corporation's budget office,
the AmeriCorps program office, and the National Service Trust office, there was no effective system
for monitoring AmeriCorps member enrollments compared to Trust funding levels. The investigation
is ongoing and final results will be reported in subsequent reports.

Review of the Alternative Personnel System (OIG Report of Investigation 02-039)
The Office of Inspector General is conducting a review of the Corporation's Alternative Personnel
System (APS). In response to concerns expressed by a number of employees and managers about the
effectiveness and fairness of the APS, the review was requested by Congressman Albert R. Wynn (D-
MD) and also jointly by members of the Corporation's Board of Directors and the Chief Executive
Officer.

As part of the legislation creating the Corporation, the Chief Executive Officer was authorized to
establish an APS that was excepted from many of the provisions governing Federal employees under
Title 5 of the United States Code and other statutes. Pursuant to the legislation, the Chief Executive
Officer was authorized to work with the Office of Personnel Management (OPM) to fashion a human
resource system with the type of appointments, grade and pay structures, and other elements that
would best suit the Corporation's needs. Working with OPM, the Corporation created and
implemented the APS in June 1995.

In the coming weeks, a final report will be issued containing recommendations for improvements to
the Alternative Personnel System. This review is ongoing and final results will be reported in a
subsequent semiannual report.




                                                    7                  FY03 Semiannual Report No. I
                                                                   INVESTIGA TIONS

Former AmeriCorps Member Sentencedfor Falsifying Documents ( O K Report of Investigation
01-033)
The Office of Inspector General is completing an investigation opened after Corporation management
reported that an AmeriCorps member had fraudulently obtained an education award. The
investigation revealed that the former member submitted falsified AmeriCorps documents that
allowed him to directly receive $2,362.50 of his education award, rather than having the payment sent
to an educational or lending institution, as required by the terms of the member agreement. The
former AmeriCorps member was interviewed and admitted preparing the fraudulent documents. He
pled guilty to making a false official statement, a violation of 18 U.S.C. 5 1001, and was sentenced in
the U.S. District Court, Southern District of New York, to make restitution of $2,362.50, pay a court
assessment of $100, and placed on two years of supervised probation. The Office of Inspector
General will recommend that Corporation management consider debarring the former AmeriCorps
member. The investigation is ongoing and final results will be reported in a subsequent semiannual
report.

False Claims Violation (OIG Report of Investigation 01-095)
The Office of Inspector General is investigating an AmeriCorps grantee after a member of
Corporation management reported that the grantee used Corporation funds for purposes other than in
support of the grant. Allegedly, the grantee knowingly withdrew Corporation grant funds in excess of
the grantee's needs to keep the grantee operating. The U.S. Department of Justice's Affirmative Civil
Enforcement Coordinator accepted this investigation for prosecution as a civil false claims matter.
The investigation is ongoing and final results will be reported in a subsequent semiannual report.

VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)
The Office of Inspector General is investigating an allegation reported by Corporation management
that an unknown person received, forged, and cashed several AmeriCorps*VISTA stipend payment
checks of a former VISTA participant over a six-month period. The investigation is ongoing and
final results will be reported in a subsequent semiannual report.

Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)
The Office of Inspector General is investigating an allegation reported by Corporation management
that a former program director of an AmeriCorps grantee embezzled AmeriCorps funds. Evidence
indicates that the former director embezzled a significant amount of program funds, a portion of
which were AmeriCorps grant funds. The investigation is ongoing and final results will be reported
in a subsequent semiannual report.

Childcare Fraud (OIG Report of Investigation 02-008)
The Office of Inspector General is investigating an allegation reported by a grantee that a former
AmeriCorps member and her childcare providers submitted false AmeriCorps*Care applications,
knowing that the providers would not be furnishing the services as claimed. The investigation
revealed evidence that the former member and the providers submitted false monthly attendance
reports. This allowed the providers to receive thousands of dollars in AmeriCorps*Care subsidies,
which they shared with the former member. Further investigation disclosed evidence that the former
member received State childcare subsidies during the same period by conspiring with two different
providers to defraud the State system in the same manner. The State providers received a significant
amount of Federal funds in childcare subsidies, which they also shared with the former member. All


                                                   8                  FY03 Semiannual Report No. I
                                                                  IN VESTIGATIONS
the providers admitted to their involvement in the fraud. The former member admitted to some
involvement. A review of the former member's time sheets revealed that, although the former
member was certified as eligible to receive an education award, only a small portion of service hours
were documented. Of these hours, 185 hours were on time sheets that bore the forged signature of the
member's supervisor. The U.S. Department of Justice accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Personal Use of AmeriCorps Program Credit Card (OZG Report of Investigation 03-014)
The Office of Inspector General is investigating an allegation reported by a State commission that a
former AmeriCorps program director used the AmeriCorps program charge card for personal use.
Evidence indicates that the former director used the card to obtain cash advances and to purchase
personal items. The U.S. Department of Justice declined to accept this investigation for prosecution
based on the low amount of money involved. Local law enforcement and the local prosecutor intend
to charge the former director with a felony theft violation. The investigation is ongoing and final
results will be reported in a subsequent semiannual report.

Personal Use of AmeriCorps Program Credit Card and Embezzlement (OZG Report of
Investigation 03-015)
The Office of Inspector General is investigating an allegation reported by Corporation management
that a former associate director of an AmeriCorps program misused the program's credit card.
Evidence indicates that the former director used the card for personal use and embezzled a significant
amount of program funds. The U S . Department of Justice has accepted this investigation and is
pursuing criminal prosecution. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Improper Expenditures of Grant Funds (OZG Report of Investigation 02-013)
The Office of Inspector General is investigating an allegation reported by a State commission that a
State grantee made improper expenditures of grant funds. An investigation disclosed evidence that a
former grant administrator and a former executive director prepared, and caused to be submitted, a
Periodic Expense Report claiming that the grantee paid for a number of laptop computers and cellular
telephones. These items were not purchased. A third staff member, a former administrative director,
then diverted a significant amount of AmeriCorps funds to pay the grantee's staff payroll. The U.S.
Department of Justice accepted this investigation and is pursuing criminal prosecution. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-028)
The Office of Inspector General is investigating an allegation reported by Corporation management
that an executive director of a grantee was diverting Corporation program funds to cover personal
expenditures and business expenses unrelated to program operation. The investigation found
evidence that the executive director and the director's spouse diverted a significant amount of
Corporation funds. The U.S. Department of Justice has accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.




                                                  9                  FY03 Semiannual Report No. I
                                                                  INVESTIGA TIONS

Personal Checks Stolen From the U.S. Mail (OIG Report of Investigation 03-012)
The Office of Inspector General completed an investigation into allegations by a Corporation
employee that an unknown individual stole her blank personal checks from the U.S. mail prior to their
being delivered to her at the Corporation. Made payable to a name that may be fictitious, the
unknown individual forged the employee's signature on a check for $100 and cashed it at a bank in
the Washington, D.C., area.

Since the checks were mailed to the Corporation's address and may have been processed in the
Corporation's mailroom, this investigation was initiated to determine if there was evidence that the
theft occurred in the mailroom. No such evidence was found. Coordination with the U.S. Postal
Inspection Service (USPIS), Merrifield, Virginia, revealed that USPIS is investigating similar thefts
occurring in the Washington, D.C., area. All information developed during the course of this
investigation was provided to USPIS for use in their continuing investigation.

AmeriCorps Member Submits Fraudulent Time Sheets (OIG Report of Investigation 03-006)
The Office of Inspector General completed an inquiry into an allegation reported by an AmeriCorps
Program Officer, Texas Commission on Volunteerism and Community Service, Austin, Texas. The
Program Officer reported that a recently terminated AmeriCorps member submitted fraudulent
timesheets claiming service hours for work that was not performed. The former member received no
living stipend for the period covered by the timesheets and received no credit for the service hours
claimed.

This matter was coordinated with the University of Texas - El Paso, Department of Public Safety, El
Paso, Texas. The university police told the OIG that they would not investigate the matter further
since there was no monetary loss.

Review of Government Purchase Card Use (OZG Report of Investigation 02-020)
The Office of Inspector General completed a review of government purchase card use by Corporation
employees. No evidence was found that employees were abusing the purchase card program.

The review did find some conditions that, if allowed to continue, could result in abuse or the
perception of abuse of the program. The conditions included the purchase of computer equipment
and software without approval, a lack of documentation used to support the purchase of food, and the
payment of sales tax when not required. These conditions were reported to Corporation management,
along with recommendations to mitigate each condition.

The review also noted that, in two of the six locations visited, the purchase card records were
particularly well organized and cross-referenced to allow for an efficient and thorough review of
individual transactions.

Anonymous Allegations of Impropriety Unsubstantiated (OZG Report of Investigation 03-002)
The Office of Inspector General completed an inquiry opened after receiving anonymous information,
alleging that Corporation staff of the Public Affairs Office (PAO) improperly paid travel expenses for
an individual who was not a Corporation employee, paid the full-time salary of a P A 0 staff member
while the person was enrolled as a resident university student outside the Washington, D.C., area, and
that two staff members misused their government small purchase cards by purchasing products for
personal use.


                                                  10                  FY03 Semiannual Report No. 1
The Office of Inspector General inquiry determined that the P A 0 staff member's travel to and from
Salt Lake City, Utah, at Corporation expense and while the staff member was not a Corporation
employee was proper and in accordance with Corporation policy and the Federal Travel Regulations.
The Office of Inspector General inquiry found that the P A 0 staff member who enrolled as a resident
university student outside the Washington, D.C., area had her employment status changed from full-
time to an intermittent consultant and was paid only for work actually performed until she resigned.
Further, the inquiry found nothing to indicate P A 0 staff members were misusing their government
small purchase cards.

As a proactive effort, all charges made by all P A 0 staff to their individual government travel charge
card, during the period from January through September 2002, were reviewed. The Office of
Inspector General inquiry found nothing to indicate P A 0 staff members were misusing their
government travel cards.




                                                   I1                  FY03 Semiannual Report No. I
                                                                            INVESTIGA TIONS


                                    SUMMARY OF INVESTIGATIONS


     Opened and Closed

     Number of Cases Open at Beginning of Reporting Period                                           17

     Number of New Cases Opened this Reporting Period                                                16

     Number of Cases Closed this Period With Significant Findings                                     3

     Number of Cases Closed this Period With No Significant Findings

     Total Cases Closed this Reporting Period                                                         10

     Number of Cases Open at End of Reporting Period                                                 23

     Referred

     Number of Cases Referred for Prosecution this Reporting Period                                    7

     Number of Cases Accepted for Prosecution this Reporting Period                                   5

     Number of Cases Declined for Prosecution this Reporting Period                                    1

     Number of Cases Pending Prosecutorial Review                                                      2

     Recommendations to Management

     Number of Investigative Recommendations Referred to Management                                   3




3
    This includes one (1) case referred for prosecution during a previous reporting period.



                                                          12                     FY03 Semiannual Report No. 1
                                           TABLES

     TABLE I     -   INSPECTOR GENERAL REPORTS WITH QUESTIONED
                                   COSTS



                                                                     Questioned         Unsupported
                     Report Category                    Number         Costs               Costs
                                                                           (Dollars in thousands)

      Reports for which no management decision had          15         35,437                  22,446
      been made by the commencement of the
      reporting period

      Reports issued during the reporting period

      Total Reports (A + B)

      Reports for which a management decision was
      made during the reporting period

      1.      Value of disallowed costs
      ..
      11.     Value of costs not disallowed

      Reports for which no management decision had
      been made by the end of the reporting period
      (C - D)
                                                        -        -                 -                -
                                                                                                    -




F.    Reports with questioned costs for which no            10         $ 29,422            $    18,293
      management decision was made within six (6)
      months of issuance




                                                   13                 FY03 Semiannual Report No. I
         TABLE II - INSPECTOR GENERAL REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                        Report Category                  Number        Dollar Value
                                                                     (Dollars in thousands)

A.   Reports for which no management decision had been     2                  1,607
     made by the commencement of the reporting period

B.   Reports issued during the reporting period            0                       0

C.   Reports for which a management decision was made
     during the reporting period

     i.     Value of recommendations agreed to by
            management:

             based on proposed management action           1                      42

             based on proposed legislative action          0                        0
     ..
     11.    Value of recommendations not agreed to by      1
            management


D.   Reports for which no management decision had been     1
     made by the end of the reporting period

E.   Reports for which no management decision was made      1
     within six (6) months of issuance




                                                    14     FY03 Semiannual Report No. I
  TABLE III      - SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT
                                          DECISIONS

                                                     Federal     Management
Report                                               Dollars      Decision  Status as of
Number                     Title                    Questioned     Due* - March 31,2003
         Audit of the Corporationfor National and                              Management has
         Community Service Contract No. 95- 743-                               not resolved the
         1009 with Biospherics, Inc.                                           questioned costs.

         Audit of the Corporationfor National and                              Management has
         Community Service Contract No. 95- 743-                               not resolved the
         1005 with Outsourced Administration                                   questioned costs.
         Systems, Inc.
         Audit of Corporationfor National and                                    A Proposed
         Community Service Grant Number                                         Management
         97LHEDCOOI to the American Association                                Decision has not
         of Community Colleges                                                 been provided to
                                                                                     OIG

         Incurred Cost Audit of Grants Awarded to                                A Proposed
         the Kentucky Commission on Community                                   Management
         Volunteerism and Service                                              Decision has not
                                                                               been provided to
                                                                                     OIG

         Incurred Cost Audit of Grants Awarded to                                A Proposed
         the Missouri Community Service                                         Management
         Commission                                                            Decision has not
                                                                               been provided to
                                                                                     OIG

         Incurred Cost Audit of Grants Awarded to                                A Proposed
         the Michigan Community Service                                         Management
         Commission                                                            Decision has not
                                                                               been provided to
                                                                                     OIG

         Incurred Cost Audit of Grants Awarded to                                A Proposed
         the Alaska State Community Service                                     Management
         Commission                                                            Decision has not
                                                                               been provided to
                                                                                     OIG

         Incurred Cost Audit of Grants Awarded to                                A Proposed
         the New Jersey Commission on National                                  Management
         and Community Service                                                 Decision has not
                                                                               been provided to
                                                                                     OIG



                                              15                    FY03 Semiannual Report No. I
    TABLE 111         - SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT
                                                    DECISIONS

                                                                    Federal          Management
Report                                                              Dollars           Decision            Status as of
Number                             Title                           Questioned          Due*              March 31,2003
 02-20      Incurred Cost Audit of Grants Awarded to                  2,979,92 1        0 1/29/03          A Proposed
            the New Hampshire Commission on                                                               Management
            National and Community Service                                                               Decision has not
                                                                                                         been provided to
                                                                                                               OIG

 02-2 1     Incurred Cost Audit of Grants Awarded to                    780,999         0313 1/03          A Proposed
            the Alabama Governor's Of$ce on National                                                      Management
            and Community Service                                                                        Decision has not
                                                                                                         been provided to
                                                                                                               OIG
            Total                                                  $29.42 1.55 1

*Under Section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management decision must be made
within six (6) months of the issuance of the final report and corrective actions completed within one (1) year.




                                                         16                                FY03 Semiannual Report No. 1
      TABLE IV           -   REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                             REPORTS WITHOUT FINAL ACTION
                                                                                                           Final
 Report                                                                                     Date           Action
 Number                                         Title                                      Issued          Due*
                Audit of Corporation for National Service Contract No.
                95-743-1 009 with Biospherics, Inc.

                Audit of Corporation for National and Community
                Service Contract No. 95- 743-100.5 with'Outsourced
                Administrative Systems, Inc.

                Pre-Audit Survey Report of the Alaska State Community
                Sewice Commission

                Report on the Review of the Corporation for National
                and Community Service National Direct Grant
                Application Review Process

                Audit of CNCS Grant Number 97LHEDC001 to the
                American Association of Community Colleges

                 Incurred Cost Audit of Grants Awarded to the Missouri
                 Community Service Commission

* Under Section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management decision
must be made within six (6) months of the issuance of the final report and corrective actions completed within one (1:
year,




                                                            17                     FY03 Semiannual Report No. 1
        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

         OFFICE OF INSPECTOR GENERAL


           HOTLINE   -     -




                      Corporation Employees!
            Concerned Citizens!        Grantee Employees!

     AmeriCorps Members!                     Senior Corps Volunteers!




          Report suspected fraud, waste or abuse.
                      r All information is confidential.

                      r You may remain anonymous.




                                Or write:

-1                       OIG HOTLINE
           Corporation for National and Community Service
               1201 New York Avenue NW., Suite 830
                       Washington, D.C. 20525
